<html>
<title> - [ERRATA] NATURALLY OCCURRING RETIREMENT COMMUNITIES: A MODEL FOR AGING IN PLACE</title>
<body><pre>[Senate Hearing 109-599]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-599
 
                                [ERRATA]
 NATURALLY OCCURRING RETIREMENT COMMUNITIES: A MODEL FOR AGING IN PLACE

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                 HEALTH, EDUCATION, LABOR, AND PENSIONS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                   ON

 EXAMINING NATURALLY OCCURRING RETIREMENT COMMUNITIES AND WHAT IMPACT 
 THEY MAY HAVE ON THE ABILITY TO CREATE LIVABLE COMMUNITY OPTIONS FOR 
                             ALL AMERICANS

                               __________

                              MAY 16, 2006

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


                    U.S. GOVERNMENT PRINTING OFFICE
36-211                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                                [ERRATA]

                            S. Hrg. 109-599

The above referenced publication was inadvertently printed without the 
   statement of the United Jewish Communities. The statement follows.
                 Statement of United Jewish Communities

INTRODUCTION

    United Jewish Communities and the Jewish Federations of 
North America are delighted that Chairman DeWine and Ranking 
Democrat Barbara Mikulski have scheduled today's Subcommittee 
on Retirement, Security and Aging hearing on lessons learned 
and best practices associated with the Older Americans Act NORC 
Supportive Services demonstration projects. We believe that the 
Older Americans Act reauthorization process provides a timely 
opportunity for Congress to consider the benefits of furthering 
NORC Supportive Service Programs in the face of a burgeoning 
older adult population. In this vein, we strongly support the 
subcommittee's pending consideration of a proposal to authorize 
a NORC grant and technical assistance initiative, as it looks 
to promote new and innovative ways to improve community 
planning and services programs in the field of aging.

UNITED JEWISH COMMUNITIES' INVOLVEMENT WITH NORC SUPPORTIVE SERVICE 
                    PROGRAMS

    Developing solutions that enable seniors to remain living 
at home for as long as safely feasible, is in keeping with 
their preferences, promotes their physical and mental 
wellbeing, and is a promising solution to help deflect the 
significant financial costs of long-term care anticipated with 
the retirement of the 78 million Baby Boomers. This issue is an 
immediate concern of the Jewish community, which is presently 
aging at nearly twice the national average. As such, it is a 
top priority of United Jewish Communities--the umbrella 
organization of the Jewish Federations of North America (one of 
the Nation's major networks of non-profit community-based 
health and social service agencies).
    United Jewish Communities has helped foster the development 
of NORC Supportive Service Programs throughout the Federation 
system as part of its responsibilities to promote innovation, 
best practices, and program opportunities among the system's 
health and social service providers. The NORC demonstration 
projects arose as an opportunity to test on a system-wide scale 
the applicability and adaptability of the NORC Supportive 
Service model first developed in New York by UJC's largest 
federation, UJA Federation of Jewish Philanthropies of New 
York. The New York model, introduced in 1985, has proven to 
provide a very practical infrastructure for serving the needs 
of the elderly who are living independently in naturally 
occurring retirement communities. NORCs are communities, 
housing developments, apartment buildings, and neighborhoods 
with high concentrations of older residents. The model now 
serves more than 40 sites in New York State, where greater than 
50,000 older adults reside.
    Since 2002, Congress has supported the establishment of 
more than 40 NORC demonstration projects in 25 states. These 
demonstrations enjoy bi-partisan support in both chambers of 
Congress. UJC provides these projects with technical assistance 
on program development; conducts annual meetings that bring the 
participating communities together for information exchanges 
and seminars on issues and subjects of mutual interest; 
represents the projects at regional and national conferences on 
aging; and is currently conducting an outcomes evaluation of 
the demonstrations to gauge the impact of the NORC Supportive 
Service model on reducing social isolation among participating 
older adults. Social isolation has been linked to adverse 
health outcomes, an increased risk of premature 
institutionalization, and its reduction is a common 
programmatic thread that links all of the NORC demonstrations 
together.

PUBLIC POLICY IN SUPPORT OF THE ESTABLISHMENT OF AN OAA-AUTHORIZED NORC 
                    PROGRAM

    According to AARP surveys, more than 90 percent of older 
adults prefer to remain in their homes for as long as possible. 
This trend has led to many communities becoming Naturally 
Occurring Retirement Communities. AARP has reported that as 
many as 25 to 36 percent of seniors live in NORCs. This trend 
is here to stay as the majority of 45 and older Americans 
(almost 85 percent) also want to age in place, according to 
AARP, and want to receive the services that will allow them to 
do so.
    Interest in NORC programs as a strategy to promote aging in 
place is increasing, and the number of programs is growing. A 
study funded by the Robert Wood Johnson Foundation and 
conducted by the Florence Heller Graduate School of Brandeis 
University found NORCs provide singular opportunities to 
deliver health and supportive services cost-effectively; 
increase service availability; organize cooperative health 
promotion, crises prevention, and community improvement 
initiatives; and develop new human, financial, and neighborhood 
resources for the benefit of older residents. According to this 
study, with the older adult population expected to mushroom to 
78 million (20 percent) of the U.S. population by 2025 (from 
12.5 percent today), the number of NORCs is likely to grow 
significantly.
    At a 2002 Senate Special Committee on Aging hearing on the 
impact of the baby boom generation on long-term care in 
America, David M. Walker, Comptroller General of the United 
States, testified that in coming decades the sheer number of 
aging Baby Boomers will swell the number of elderly with 
disabilities and the need for services--nearly quadrupling 
current spending for long-term care for the elderly by 2050. 
Given the anticipated increase in demand for long-term care 
services resulting from the aging of the baby boom generation, 
the Comptroller General recommended in his testimony that 
reform of long-term care financing should, in addition to 
traditional health care services, encompass services related to 
maintaining quality of life, preserving individual dignity, and 
satisfying preferences in lifestyle, including where one wants 
to live or what activities one wants to pursue. The NORC 
Supportive Services paradigm (conceptual framework) embodies 
these very goals.
    At a May 17, 2005 Subcommittee on Retirement, Security and 
Aging hearing on Older Americans Act reauthorization, Assistant 
Secretary Josephina Carbonell testified that long-term care 
services in this country are out of sync with the needs and 
preferences of older Americans; there is a lack of integration 
of programs and services that has led to poor coordination and 
inefficiencies in the delivery of long-term care; and that the 
pending demographic expansion of the older population will 
drive the cost of long-term care to unsustainable levels. In 
light of this assessment, the Assistant Secretary further 
testified that the U.S. Administration on Aging has made 
central to its strategic mission:

    <bullet> Increasing consumer choice in community-based 
services that enable older Americans to stay at home for as 
long as possible, maintain their independence, and ensure their 
quality of life;
    <bullet> Improving efficiencies and integration in access 
to long-term care and, thereby, reducing service fragmentation;
    <bullet> Engaging older adults in the planning and control 
of their own long-term care in order to maintain their health 
and reduce the risk of disease, disability and injury; and
    <bullet> Promoting emerging solutions to respond to the 
challenges of escalating long-term care costs.

    In concluding her testimony, the Assistant Secretary 
remarked that the NORC Supportive Service model affirms that 
older adults want to remain aging in place, and provides a 
``perfect'' example of improved coordination of care and 
support that comes to bear on the quality of life of older 
Americans. We are pleased with this recognition, and agree that 
NORC Supportive Service programs are on point with the 
Administration on Aging's central mission in that they:

    <bullet> Organize and locate a range of coordinated health 
care and social services and group activities on site;
    <bullet> Draw strength from partnerships that unite housing 
entities and their residents, health and social service 
providers, government agencies, and philanthropic 
organizations;
    <bullet> Promote independence and healthy aging by engaging 
seniors before a crisis and responding to their changing needs 
over time;
    <bullet> Provide seniors with vital roles in the 
development and operation of the program (both in governance 
and volunteer roles); and
    <bullet> Fill the gaps (but do not duplicate) where 
Medicare, Medicaid, or Older Americans Act services are 
insufficient or inadequately coordinated.

    Furthermore, at a February 14, 2006 hearing on Older 
Americans Act reauthorization held by the Senate Subcommittee 
on Retirement, Security and Aging, Jo Reed, AARP's National 
Advocacy Coordinator for Federal Livable Communities and 
Consumer Issues, testified that AARP has taken great interest 
in Congress' NORC demonstrations. She stated that there is an 
evolving awareness in the Aging Network that NORCs exist, and 
that we need to recognize the opportunities they present to 
achieve economies of scale and bringing services to where 
people live and want to remain.

CONCLUSION

    The Administration on Aging, the Comptroller General of the 
United States, and leaders in the Nation's Aging Network agree 
that there is a vital public interest in promoting and 
assisting greater and more effective options in the provision 
of community-based health and social services to older adults 
as a means to sustain and make more responsive the Nation's 
already-strained system of long-term care. In the face of the 
unprecedented and dramatic shifts in economic and social forces 
that are expected to occur with the rapidly expanding older 
adult population, the NORC Supportive Service model has 
resonance for its innovation and applicability to serve 
millions of older adults residing in thousands of communities 
across the country. Our community, whose demographic make-up 
serves as a bell-weather for the Nation's pending baby boom, 
strongly supports the establishment within the Administration 
on Aging a grant and technical assistance program to assist 
community-based, non-profit health and social service providers 
to develop and implement comprehensive and coordinated systems 
of health and social services targeted to serve older adults 
living in NORCs. Today's hearing is a timely step in this 
direction and we thank Chairman DeWine and Ranking Democrat 
Mikulski for scheduling the hearing, in conjunction with the 
subcommittee's consideration of its OAA reauthorization 
recommendations, including the possibility for the 
establishment of a NORC pilot and technical assistance program 
within the reauthorization package.
    (United Jewish Communities (UJC) represents 155 Jewish 
Federations and 400 independent communities across North 
America. Through the UJA Federation Campaign, UJC provides 
life-saving and life-enhancing humanitarian assistance to those 
in need, and translates Jewish values into social action on 
behalf of millions of Jews in hundreds of communities in North 
America, in towns and villages throughout Israel, in the former 
Soviet Union, and 60 countries around the world.)

                                 <all>

</pre></body></html>
